United States v. Cammon
United Slates Court of Appeals for the Sixth Circuit
March 9,2021, Filed
File Nome: 2la0t22n.06
Case No, 19-4244
Reporter
2021 U.S. App. LEXIS 7094 *; 849 Fed Appx. 54l;202t FED App. Q122N (6lh Cir.); 202! Wl 868549
UNITED STATES OF AMERICA. PlaintiffAppellee. v. TYRONE CAMMON, DefendantAppcllanl.
Notice! NOT RECOMMENDED FOR FULLTEXT PUBLICATION. SIXTH CIRCUIT RULE
28
LIMITS CITATION
TO
SPECIFIC
SITUATIONS. PLEASE SEE RULE 28 BEFORE
CITING IN A PROCEEDING IN A COURT IN
THE SIXTH CIRCUIT. IF CITED, A COPY
MUST BE SERVED ON OTHER PARTIES AND
THE COURT. THIS NOTICE IS TO BE
PROMINENTLY
DISPLAYED
IF
THIS
DECISION IS REPRODUCED.
Prior History: |*I|ON APPEAL FROM THE
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO.
Counsel: For UNITED STATES OF AMERICA,
Plaintiff- Appellee: Laura McMullen Ford,
Assistant U.S. Attorney, Office of the U.S.
Attorney, Cleveland. OH.
For TYRONE CAMMON, Defendant * Appellant
Russell Stephen Doming, Law Offices, Cleveland,
OH; Tyrone Cammon, Defendant - Appellant,
U.S.P. Hozclton, Bruccton Mills, WV; Jeffrey P.
SafTold, Rrent Conn & Associates, Cleveland, OH.
Judges: BEFORE: MOORE, ROGERS, and
READLER, Circuit Judges..
Opinion by: CHAD A. READLER

Opinion

CHAD A. READLER, Circuit Judge. With the
backing of an arrest warrant, officers apprehended
Tyrone Cammon in his sister's apartment. A
protective sweep of the apartment revealed
evidence of drug trafficking as well as two
handguns. Cammon contends that the officers'
scorch was unreasonable under the Fourth
Amendment, and that Utc admission of a
confidential informant's out-of-court statement at
Common’s subsequent trial violated his Sixth
Amendment Confrontation Clause rights. The
district court rejected those arguments, and the jury
relumed a verdict convicting Cammon of various
federal offenses. We now affirm.
l.
While on patrol, officers in Cleveland stopped
Tyrone Cammon for making a left turn without
using his |*21 turn signal and having extremely
dark tinted windows for his vehicle. Rather thnn
engage with tho officers, Cammon fled his vehicle
on foot in an attempt to escape the scene. He was
eventually detained. A search of Cammon and his
vehicle uncovered u handgun and distribution*
packaged doses of femanvt, a scale, three cell
phones, and 3500 cash. While Cammon was being
held in jail, officers connected the handgun to nn
earlier shooting at a Cleveland gas station.
Nonetheless, Common was eventually released on
bond. But when Cammon failed to appear for a
subsequent court proceeding, a state judge issued a
warrant for his arrest.
The U.S. Marshals Service received a tip that

Cammon Appendix A1

Page 2 of 6
2021 U.S. App. LEXIS 7034. *2

Common was hiding out at his sister's apartment,
Officers began survcilling the apartment building,
After several hours, they observed an individual
whom they believed to be Gammon exit the
building, jog to a parked car, retrieve a bag, and
then reenter die building. Officers followed
Common into die building to execute the arrest
warrant. They knocked on the door of his sister’s
apartment and announced their presence. Upon
receiving no answer, yet hearing a toilet Hush,
officers entered the apartment on the
suspicion |*3| that Common was destroying
evidence.

on a iekm-in-posse$sion-oi-firearm charge related
to Utc gas station shooting but convicted him on six
firearm and possession-wiih-intcnMo-distrihute
fcntanyl and heroin charges. This timely appeal
followed,
jj

On appeal, Common maintains that officers
violated the Fourth Amendment both by entering
his sister’s apartment to execute his arrest warrant,
and by seizing two firearms during a protective
sweep incident to Common's arrest The district
court rejected (hose arguments and declined to
suppress the evidence. We review the district
Officers discovered Cammon in the kitchen with court's factual findings under a clear error standard
his dQlhins covered in a whhc powdny sabsun.ee. rald iu |e
condusions * novo. Untmi Slms v.
An unknown woman was in the living room, and Gilbert, 952 F.3d 759, 762 (6th Cir. 2020). In this
drugs and related paraphernalia were in plain view posture, wc consider evidence presented both at
throughout the apartment. Officers handcuffed trial and at die suppression hearing, viewing the
Common and commenced a protective sweep of the evidentiary record in the light most favorable to the
residence. In an adjoining bedroom, officers* government. United States v. Gill, 685 F.3d 606,
noticed a handgun "sticking up out of... clothing 609 (6lh Cir. 2012).
in an open plastic container in a doorless closet.
Officers also found another handgun stashed l. The Fourth Amendment protects "|t|he right of
between the mattress and box spring. Within a few the people to be secure in their persons, houses,
hours, officers obtained and executed a search papers, and effects, against unreasonable scorches
warrant for the apartment. While executing the and |*5| seizures." U.S. CONST, amend. IV. In
warrant, officers seized disiribuiion quantities of assessing Gammon's Fourth Amendment challenge
fcntanyl, heroin, and fcntanyl analogues, along with to the search of his sister’s apartment, we note at the
other drag-distribution paraphernalia.
outset the significance of a warrant in determining
whether this search was ‘’unreasonable." "fPJhysicol
A seven-count federal indictment followed. Before
entry of the home" is the "chief evil against which
trial, Cammon moved to suppress the contraband the wording of the Fourth Amendment is directed."
seized from the traffic slop and inside the United States v. US Oisr. Ct„ 407 U.S. 297, 313,
apartment. As to the search of the apartment, 92 S. Ct. 2125, 32 L. Ed. 2d 752 (1972). It follows
Cammon argued that officers exceeded the that, absent consent or exigent circumstances, entry
permissible scope of a protective sweep under the into a home to conduct a search or make an arrest is
Fourth Amendment by seizing drugs and guns at unreasonable without a warrant. Steaguld v. United
the lime of his urrest. The district court denied each States. 431 U.S. 204, 213, 101 S. Cl. 1642, 68 L.
of Gammon’s challenges. During trial, |*4| Ed, 2d 38 & n.7 (1981). By the same token, "[ajs
Cammon raised a Skill Amendment objection to with searches, courts more often will deem seizures
the admission of a testimonial out-of-court reasonable when they arc associated with a
statement by a confidential informant linking warrant." Graves v. Mahoning County, 821 F.3d
Cammon to a handgun in a separate incident. The 772, 777 (6th Cir. 2016). That is so in pan because
district court, however, overruled the objection. securing a warrant "subjects] the probable-cause
After a three-day trial, the jury acquitted Cummon determination of the police to judicial review."

Cammon Appendix A2

Pug< 3 of 6
2021 U S. App. LEXIS 7094. ‘3

Steagald, 451 U.S. at 212*13 (noting that the
special Fourth Amendment protection afforded to
the home typically requires more than "judicially
untested determinations* of probable cause).

building. Under these circumstances, it was not
unreasonable for officers to exhibit the momentary
caution necessary to moke a positive identification
before arresting Common-

As Cammon emphasizes, officers did not obtain a True. as Common notes, the First Circuit once
search warrant for his sister’s residence. Bui suppressed fruits of a search when officers
officers did possess a valid arrest warrant, which deliberately delayed the execution of on arrest
afforded those officers "the limited authority to warrant in pursuit of incriminating evidence. See
enter a dwelling in which the suspect lives when United States v. Curzi, 867 F.2d 36, 41 (1st Cir,
there is reason to believe lire suspect is within." 1989). But in C’</rr». the search was deemed
Payton v. New York, 445 U.S. 573, 603, I0U S. Ct. unreasonable only after federal agents admitted
1371, 63 L. Ed. 2d 639 (1980). It is generally making the "tactical choice” to trail the suspect for
understood that Payton's, reach extends |*6| days, intentionally passing up several "golden
beyond "o dwelling in which the suspect lives" to opportunities)" to make a safe arrest, later
the dwellings of relevant third parties, so long as arresting the suspect in his home where officers
officers have a warrant for a suspect's arrest and a hoped to scute evidence without a search warrant.
reason to believe die suspect is inside. United id at 40. The "uncomcsicd evidence" in Curst
States v. Pruitt, 458 F.3d 477,482 (6lh Cir. 2006). showed that "law enforcement personnel planned,
In defining Payton's "reason to believe" standard, well ahead of lime, to order not just (the suspect)
however, we have at times vacillated between a hut all the occupants of the dwelling to exit, and
"probable cause" and a lesser "reasonable belief' then to conduct the protective sweep, come what
standard to define whether an officer flurly hud might" id The extreme conduct there docs not
"reason to believe the suspect is within (the resemble that here.
dwelling)." United States v. Baker. 976 F.3d 636,
2. Cammon contends that, even if the officers'
642 (6th Cir. 2020) (collecting cases). We need not
further that debate here, as Cammon docs not initial entry into the apartment was lawful, die
scope |*8| of their protective sweep exceeded
seriously dispute that officers "were aware that (he)
was in his sister's apartment," given that constitutional parameters. By way of background,
in recognition of the risks attendant to performing
surveillance confirmed Common's presence. The
officers, in other words, were entitled to enter the an in-home arrest, the Fourth Amendment
authorizes officers to conduct a limited protective
apartment to execute the arrest warrant under either
sweep of the premises to ensure officer safety.
standard.
Maryland v, Buie. 494 U.S. 325, 333, 110 S. Cl.
Even then, says Cammon, the search was 1093. 108 L. Ed. 2d 276 (1990). Bute recognized
unreasonable in that the officers should have two types of protective sweeps associated with an
detained Cammon outside the apartment, when they in-home arrest—one more expansive than the other,
first spotted him retrieving clothing from a car. but both constituting a search more circumscribed
Becuuse Cammon mokes this argument for the first than a search warrant would allow, id at 334; see
time on appeal, it is subject to plain error review. atso United States v. Archibald, 589 F.3d 289, 295
United States v. Cuhetli. 836 F3d 654, 664 (6th (6th Cir. 2009); United Siuies v. Cousins. _ F.
2021 U.S. App. LEXIS 1365, 2021 WL
Cir. 2016). Officers saw an individual appearing to App'x
be Cammon outside, near a cor. Although officers 164687, at *9 (6th Cir. Jan. 19, 2021). As a
were "pretty positive" the man was |*7| Cammon, "precautionary matter” and "without probable cause
there was some doubt. And by the time they or reasonable suspicion," officers may "look in
confirmed his identity, Common had reentered the closets und other spaces immediately adjoining the

Cammon Appendix A3

Page 4 of6

2021 U.S. App. LEXIS 7094. *0

place of arrest from which an attack could be
immediately launched." Buie, 494 U.S. at 334. If
officers seek to extend their search "Ibjevond" that
cabined scope, there must be “articulable facts"
together with "rational inferences" that would
"warrant a reasonably prudent officer in believing
dial die area to be swept harbors an individual
posing a danger to those on the arrest scene." Id
This latter type of sweep is "not a full search of the
premises”; it extends "only to n cursory inspection
of those spaces where a person may be found." Id
at 335. In both instances, an officer may seize |*9|
contraband found in plain view if its incriminating
character is immediately apparent. Horton v.
California, 496 U.S. I28, 136, 1I0S. Cl 2301, 110
L. Ed. 2d 112(1990).
With this legal backdrop in mind, wc turn to the
search at issue here. As part of their protective
sweep, officers discovered two handguns in a
bedroom adjacent to the scene of Common's arrest:
an extended magazine Clock pistol "sticking up"
from an open box in the bedroom's doorless closet,
and another Clock pistol wedged between the
mattress and box spring. Starting with the officers'
seizure of the handgun in the bedroom closet, that
seizure falls under the first and more permissive
category of Buie sweeps. When officers entered the
apartment, they found Common in the kitchen.
According to an officer, the apartment was a “very
small" "efficiency" unit with close proximity
between the four adjoining rooms: a bathroom, a
bedroom, a kitchen, and a living room. Because
Buie grants officers the right to automatically
inspect "spaces immediately adjoining" the place of
arrest "from which an attack could be immediately
launched." officers were entitled to conduct a
protective sweep of the adjoining bedroom and
seize any contraband found in plain view. See, e.g..
United States v. Newsome, 504 F. App’x 463, 466
(6lh Cir. 2012) (holding that Bum allowed
officers [Mft| to search an adjoining bedroom as a
"space immediately adjoining tire place of arrest” in
the kitchen). Cuiumon presents no compelling
arguments to the contrary.

Whether the seizure of the handgun found between
the mattress and box spring is justified by Buie
presents a closer question. Cj United States v.
Lanier, 285 F. App*x 239, 24! (6th Cir, 2008).
Given its size, arguably the entire apartment
constituted on "immediately adjoining" space. See
United States v. Thomas, 429 F.3d 282. 287-88.
368 U.S. App. D.C. 285 (D.C. Cir. 2005) ("If an
apartment is small enough that all of it
’immediately adjoinls] the place of arrest’ and all of
it constitutes a space or spaces 'from which an
attack could be immediately launched/ then the
entire apartment is subject to a limited sweep of
spaces where a person may be found." (internal
citation omitted)). But whether an "attack could be
immediately launched" from between the mattress
and the box spring Is debatable. An officer testified
at the suppression hearing that suspects can hide
between the mattress and the box spring. The
question here, however, is not merely whether the
space between a mattress and a box spring poses a
viable location for a suspect to hide, but also
whether it is a place from which an "attack could
immediately be launched," Buie, 494 U.S. at 334.
In a short ruling from the bench, the district |M1|
court treated as dispositive the testifying officer’s
belief that a suspect could hide beneath a mattress;
ITlhis officer. I’ve heard a lot of testimony in
my career, I’ve heard him a couple times, but
he seemed pretty firm that on a bed, even
though if the layman would look at this bed nnd
say nobody would hide in there, l mean, that's
prubahly wlmi l would think, but thank
goodness I'm not a policeman going in and
making arrests, because they have experience,
and he said he's seen it before.
And so, that was a protective sweep. There's no
problem with that.
That conclusion leaves it unclear whether the
district court made the related determination that an
attack could be launched from between the mattress
and die box spring.
Regardless uf how one might read die underlying
testimony and resulting determination by the
district court, wc can affirm on the alternative

Gammon Appendix A4

Page 5 of6
2021 U.S. App. LEXIS 7094. *11

conclusion reached by the district court, namely,
that even if an unlawful search occurred, the
seizure of the second handgun falls within the
inevitable discovery exception to the exclusionary
rule. That exception allows for the admission of
evidence obtained through unlawful means if such
evidence "ultimately or inevitably )M2| would
have been discovered by lawful means." Nix v,
imams, 467 U.S. 431,444, 104 S. Ct. 2501.81 L.
Ed. 2d 377 (1984). Assessing the matter from a
vantogepoint before the unlawful search, we ask
whether the government can show hy a
preponderance of the evidence that the unlawfully
ubtuiued evidence would have been discovered by a
later lawful search. Id.; United States v. Alexander,
340 F.3d 494,302 (6th Cir. 2008), Here, the answer
is yes. Other lawfully (bund contraband provided
the government with the probable cause necessary
for a search warrant—namely, that Gammon was
found in an apartment with narcotics, drug
paraphernalia, and another handgun in plain view
while his clothing was "covered in white powder
residue" suspected to be drugs. That contraband
would have independently prompted a search
warrant, and the district court credited officer
testimony that officers would have invariably
searched between the mattress and the box spring
and found the handgun anyway. See United States
v. Lewis, 613 F. App'x 332, 338-39 (6th Cir. 2015)
(finding a suppression challenge to be "without
merit" where "incriminating evidence would have
been found after the warrant was issued and u fullscale search [of die premises] conducted''). \Vc Uuis
decline to disturb the judgment of die district court.

CONST, amend. VI. In practice, the Clause bars the
admission of testimonial, out-of-court statements of
an unavailable declarani offered to prove the truth
of the matter asserted, unless the defendant has had
a prior opportunity to cross-examine the declarant.
Crawford v. Washington, 541 U.S. 36, 59, 124 S.
Cl. 1354.158 L. Ed. 2d 177(2004),

Ut.

During the transaction, the confidential source
said they did observe a black itamigun sitting in
Mr. Common's lap during the deaf.
Common contends both that the informant's
statement was testimonial and that the informant
was never able to be cross-examined, meaning
admitting the statement at issue ran afoul of the
Sixth Amendment.

Invoking the Sixth Amendment Common
challenges an out-of-court statement from a
confidential informant linking Common to n
handgun. Common's counsel cross-examined an
officer regarding a previous controlled drug buy
involving Common and a confidential informant.
Although prosecutors never charged Common for
the buy, defense counsel probed why investigators
included it in an affidavit accompanying the request
for a search warrant On the subsequent redirect
examination, the prosecutor inquired about the
circumstances of that prior transaction:
Q: Detective Comerford,... Mould you please
id I us the circumstances surrounding that
controlled purchase by on informant of drugs
fur[M4| Mr. Common?
A: A controlled phone call was made, and they
were directed to call Mr. Common's phone—
**»*
Once the phone call was made, a deal was
made to purchase heroin at a predetermined
meeting locution And once at that location,
Mr. Common arrived driving a silver Jeep. At
tliat time, the narcotics transaction was
completed.

Common also asserts that his Sixth Amendment
Confrontation Clause rights were violated when the
district court, over Common's |*I3| objection,
admitted testimony that a confidential informant
bought heroin from Common while Common hud a
handgun in the car. The fhmiliar language of the
Confrontation Clause instructs that in a criminal
case, "the accused shall eiyoy the right... to be We need not resolve the Sixth Amendment
confronted with the witnesses against him," U.S. question today. Alter all, even if a violation

Cammon Appendix A5

Page 6 of6
2021 U.S. App. LEXIS 7094. *14

occurred, Common is not entitled to relief unless
the violation amounts to more than harmless error.
United States v. McGee* 529 F.3d 69!, 697 (6th
Cir. 2008). Wc have routinely held that the
admission of past criminal activity is harmless
where other evidence against the defendant is
overwhelming. See. e.g.. United States v. Powers.
500 F,3d 500.510-11 (6th Cir. 2007); United States
v. Savoires. 430 F.3d 376, 382 (6th Cir. 2005);
United States v. Parsons. 798 F. App\ 922, 926
(6th Cir. 2020). Here, "substantial evidence apart
from" the challenged statement supported the
verdict, most notably, the firearms and narcotics
seized in Cainmon’s possession. United States v.
Henderson, 626 F.3d 326, 334 (6th Cir. 2010).
When considering Cammon's claims against the
entire body of evidence, I*I5I we conclude that
any error was harmless.
IV.
For the foregoing reasons, we affirm the judgment
of the district court.
End of OtKuucuV

Cammon Appendix A6

i

i

;

i

f
:

i

>
]
I

i

i

!
1

t

APPENDIX B
JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
ENTERED 12-13-19

Case: l:18-cr-00058-DCN Doc#: 78 Filed: 12/13/19 lof7. PagelD#:500

United States District Court
NORTHERN DISTRICT OF OHIO

§

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

§
v.

§

TYRONE CAMMON

§
§
§
£

THE DEFENDANT;
pleaded guilty to count(s)
pleaded guilty to couni(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(a) after a pica of not guilty

Case Number 1:J8-CR-QQQ58.DCN(I)
USM Number. 63353-060
James A. Jenkins
Defendmrs Attorney

□

□
□

Two. Three. Four. Five. Six. Seven of tin? Indictment

The defendant is adjudicated gui Ity of these offenses:
Title <St Section/Nature of Offense
18 u.S.U 5 «22(gXU Felon in Possession Q1A Firearm
21 U.S.C. §§ 841 (a)(1) and (b)dXC) Possess With intent To Distribute Fcmanyl
18U.S.C. §924(e)(l)(A)(i) Possession Of A Firearm In Furtherance Qf A Drug Trafficking Oim^
18 ll.S.C j 922(gWI) Felon In Possession Of A Firearm
*,
f
21 U.S.C. U 841(a)(1) and (bXlXC) Pusscssiuo With Intent To Disulbutc Heroin
21 U.S.C. §§ 841 (a)(1) and (b)(1)(D) Posesston With Intent To Distribute vMaih&syocetylfentanyL
Carfentanii.ond Fentanyl

Offense Ended
11/16/2017
11/1^2017
11/16/2017
H/HW01?
11/16^017
11/16/2017

Count
2
3
4
5
6
7

The defendant Is sentenced as provided in pages 2 through 7 of tins judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
®
G

The defendant has been found noi guilty on countfs) One of the indictment.
Cuunt(s)
D is D are dismissed on the motion of the United States

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment arc felly paid, if
ordered to pay restitution, the defendant must notify the court and United Stales attorney of material changes in economic
circumstances.
December 12.1(M9
D«ts of Imposition ofJudgment

Signature of Judge

mm
Nrneane Titlo of J
pits

Cammon Appendix B1

13, 201^

Case: l:18-cr-00058-DCN Doc#: 78 Filed: 12/13/19 2 of 7. PagelD#:50t
Judgment ~ Page 2 of 7

AO 243B (Rev. yJ9) Judgment In a Criminal Case
DEFENDANT;
CASE NUMBER:

TYRONE CAMMON
1:18*CR-00058«DCN(1)

IMPRISONMENT
The defendant is hereby committed to the custody of die United States Bureau of Prisons to bo imprisoned for o total term of:
120 months as to ends of Counts 2 and 5$ 300 months as to each ef Counts 3,6 and 7; and 60 months as to Count 4 of the
Indictment. Sentence Imposed on Counts 2,3,5,6,7 to run concurrent; Sentence Imposed on Count 4 to run consecutive to all
other Counts for a total term of imprisonment of 360 months. The defendant Is given credit for time served in federal custody.
E) Tha court makes the following recommendations to the Bureau ofPrisons:
Bureau of Prisons placement near Northeast Ohio.

SI The defendant it remanded to the custody of the United States Marshal
□ The defondant shall surrender to the United States Marshal for this district:
□ at

D

□ p,m.

a.nt.

on

D as notified by the United States Marshal.
□ The defendant shall surrender for sorvico of sentonoo at foe institution designated by the Bureau of Prisons:
□ hefore 2 p.m. on
O ns notified by the United States Marshal.
□ 03 notified by the Probation or Pretrial Services Office.

RETURN
I have executed thisjudgment as follows:
Defendant delivered on
ot

to

with o certified copy of thisjudgment.

UNITED STAIRS MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Cammon Appendix B2

Case: l:18-cr-00058-DCN Doc#: 78 Filed: 12/13/19 3 of7. PagelD#:502
Judgment-Page 3 of 7

AO 2436 (Rev. y 19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

TYRONE CAMMON
1U8-CR-OOOS8-DCN(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall ho on supervised rolcoso for a term of: eight (8) years with standordfepecta)
conditions as directed

MANDATORY CONDITIONS
1. You must not commit enotha- federal, atato or local crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 1S days of
release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court's determination diet you
pose a low risk of ftiture Gubsttmcc abuse. (<koek ifapplicable)
4. Q You must mske restitution in accordance with 18 U.S.C. §§ 3683 and 3663A or any other statute eulhorifcing a sentence
of restitution (check ifapplicable)
5. gj You must cooperate in the collection of DNA as directed by the probation officer. {cheek ifapplicable)
6. □ You mustcomply vriththorequireraoatsoftheSexOfffendcrRogfcrtration&ndNotificerion Act(34 U.S.C. $ 20901, et
scq.)
os directed by the probation officer, the Bureau of Prisons, or any state sox offender registration agency in which you
reside, work, are a student, or were convicted of a qualifying offense. (check ifapplicable)
7. □ You must participate in on approved program for domestic violence, (check ifapplicable)
You must comply with the standard conditions that have been adapted fey this court as well as with any other conditions on the
attached page.

Cammon Appendix B3

Case: l:18-cr-00058-DCN Doc#: 78 Filed: 12/13/19 4of7, PagelD#:503
Judgnisu - Page 4 of 7

AO 2438 (Rev. 9/19) judgment in a Criminal Cue
DEFENDANT:
CASE NUMBER:

TYRONE CAMMON
1:18-CR-00058-DCN( 1)

STANDARD CONDITIONS OF SUPERVISION
Ai pvt of your supervised release, you must comply with tho following standard conditions of supervision. Theso conditions are
imposed because they establish the basic expectations fbr your behavior while on supervision and Identify the minimum tools needed
by probation officers to keep informed, report to the court about, end bring about improvements in your conduct and condition.
I, You must report to the probation office in the foderel judicial district where you ire authorized to reside within 73 hours of your
release from imprisonment, unless the probation officer instructs you to report to e different probation office or within a different time
frame.
3. After Initially repoittog to tho probation office, you will receive instructions ftom the court or foe probation officer about how and
when you mua report to the probation officer, aad you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
3, You must live at a place approved by the probation officer. Ifyou plan to change where you II ve or anything about your living
arrangements (such as foe people you live with), you must notify foe probation officer at least 10 days before foe change. Ifnotifying
foe probation officer in advance is not possible fore to unanticipated circumstances, you must notify the probation officer within 72
bourn of becoming awve of a change or expected change.
6. You must allow foe probation officer to visit you at any time at your homo or elsewhere, and you must permit tho probation officer
to take any items prohibited by foe conditions of your supervision that he or she observes in plain view.
7. You must work fell timo (at best 30 boon per week) at a lawfol type of employment, unless the probation officer excuses you from
doing so. If you do not have foil-time employment you must fry to find foll-tima employment, unless the probation officer excuses
you flom doing so. Ifyou plan to change where you work or anything about your work (such as your position or yourJob
responsibilities! you must notify the probation officer at least 10 days before foe change. Ifootifyhtgfoe probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify foe probation officer within 72 hours of
becoming aware ofa change or expected change. If not in compliance with foe condition of supervision requiring foll-timo
occupation, you duty be directed to perform up to 20 hours of community service per week until employed, as approved or directed by
the pretrial services rad probation officer.
8. You must not communicate or internet with jomeonc you know Is ongoged in criminal activity, if you know someone has been
oonvtctod of o felony, you must not knowingly oommunieoto or interact with that person without first getting the permission of foe
probation officer.
9. If you ere arrested or questioned by a law enforcement offiocr, you must notify tho probation officer within 73 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, foe specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
II. You must not aet or make any agreement with a few enforcement agency to act as a confidential human source or Informant
without first getting foe permisstonoffoe court
12. As directed by foe probation officer, you shall notify third parties who nay be Impacted by the nature of the conduct underlying
your current or prior offensefy) of conviction and/or shall permit the probation officer to make such notifications, and/or confirm your
compliance with this requirement.
13. You must follow tho instructions of foe probation offiocr related to foe conditions of supervision.
U.S, Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at the www.uscourts.gQv.
Dote

Defendant's Signature

Cammon Appendix B4

Case: l:18-cr-00058-DCN Doc#: 78 Filed: 12/13/19 5 of 7. PagetD #: 504
judgment ~ Page 3 of 7

AO 243B (Rev. »19) Jud$aenUn « Criminal Case
DEFENDANT:
CASE NUMBER:

TYRONE CAMMON
1:18-CR-000$8«DCN( l)
SPECIAL CONDITIONS OF SUPERVISION

Mandatory Drug Testing
You must refrain from any unlawful use of a controlled substance and submit to one drug test within IS (toys of
release from imprisonment and to at least two periodic drug tests thereafter, as determined by the Court
Substance Abuse Treatment and Testing
The defendant shall participate in an approved program of substance abuse testing and/or outpatient or inpatient
substance abuse treatment as directed by their supervising officer, and abide by the rules of the treatment
program. The probation officer will supervise your participation in the program (provider, location, modality,
duration, intensity, etc.). The defendant shall not obstruct or attempt to obstruct or tamper, in any fttshlon, with
the efficiency and accuracy of any prohibited substance testing.
Cognitive Behavioral Treatment
You must participate in a cognitive-behavioral treatment program and follow the rules and regulations ofthat
program. The probation officer will supervise your participation in the program (provider, location, modality,
duration, intensity, etc.).
Mental Health Treatment
You must undergo a mental health evaluation and/or participate in a mental health treatment program and
follow the rules and regulations of that program. The probation officer, in consultation with the treatment
provider, will supervise your participation in the program (provider, location, modality, duration, intensity,
etc.).
Search l Seizure
You must submit your person, property, house, residence, vehicle, papers, computers (as defined in 18 U.S.C. §
1030(e)(1)), other electronic communications or data storage devices or media, or office, to a search conducted
by a United States probation officer. Failure to submit to a search may be grounds for revocation of release.
You must warn any other occupants that the premises may be subject to searches pursuant to this condition. The
probation officer may conduct a search under this condition only when reasonable suspicion exists that you
have violated a condition of supervision and that the areas to be searched contain evidence of this violation.
Any search must be conducted at a reasonable time and in a reasonable manner.
Mental Health Medications
You must take all mental health medications that are prescribed by your treating physician.

Cammon Appendix B5

Case: l:18-cr-00058-DCN Doc #: 78 Filed: 12/13/19 6 of 7. PagelD #: 505
Judgment« Page 6 of 7

AO 243B (Rev. 9f 19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

TYRONE CAMMON
! :18*CR-00058*DCN(1)

CRIMINAL MONETARY PENALTIES
The defendant roast pay tho total criminal monetary penalties under tho schedule of payments pate.
Finn
AMMimant
Restitution
$.00
$.00
TOTALS
$.00
S600.00

JVTA Assessment**

□ The determination of restitution is deferred until
AnAmtudsdJudgment in a Criminal Core (A024SC) will bo entered
after such determination.
O The defendant must moke restitution (including community restitution) to the following payees in the amount Hated below.
IfftcdcfondantiMkese partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18US.C.
$ 3664(1), all nonfcderei victims must be paid before the United States is paid.

□ Restitution amount ordered pursuant to plea agreement S
□ The defendant must pay interest on restitution and a fine of more than $3,500, unless the restitution or fine Is paid in fell before
the fifteenth day after fee date of the judgment, pursuant to 18 U.S.C, §3612(1). All of the payment options on the schedule of
payments page may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
D The oouit determined that die defendant does not have the ability to pay interest and k is ordered that:
□ restitution
□ fine
□ fee interest requirement is waived for fee
q restitution is modified as follows:
Q fee interest requirement for fee

□ fine

* Amy, Vicky, end Andy Child Pornography Victim Assistance Act of 2018, Pub. L. Ho. 113-299.
M Justice for Victims ofTrafficking Act of2015, Pub. L. No. 114*22
*•* Finding* for the total amount of losses are required under Chapters IMA. 110* UQA, and i 13A of Title 11 for offenses committed on or after
September 13,1994, but before April 23,1996.

Cammon Appendix B6

Case: l:18-cM)0058-DCN Doc #: 78 Filed: 12/13/19 7 of 7. PagelD #: 506
Judgment-Page 7 of?

AO 24JB (Rev, V1$) Judgment Id a Criminal Case
DEFENDANT:
CASE NUMBER:

TYRONE CAMMON
1:18-CR-00038*DCN(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment oftho total criminal monetary penalties is duo as follows:
A

duo immediately, balance due

Q Lump sum payments of S
Q not later than
P in accordance

□

C,

p

D,

p

B

p Payment to bogin immediately (may be combined with Q

C

P Payment in equal

E,or

p

F below; or

C,

p

D, or

Q

F below); or

fag.. weekly, monthly, quarterly) Installments of $ ____ _ over a period of
fag,, SO or <50 (toys) after the date of this judgment;
fag, months oryem), to commence

or

D

ovornperiodof
P Payment in equal 20 fag., weabfc monthly, quarterly) installments of S
fag..
SO
or
60
dtps)
after release from
___________ fa.g„
or years), to commence
imprisonment to a term of supervision; or

£

p Payment during the term of supervised release will commence within__________ fag., JO or 60 days) after release
from imprisonment The court will set the payment plan based on on assessment of the defendant's ability to pay at that
time; or

F

Special instructions regarding the payment of criminal monetary penalties:
It Is ordered that the Defendant shall pay to the United States a special assessment ofSdOO.OO for Counts 1,3,4,
5,6 and ?,which shall be due Immediately. Said special assessment shall be paid to the Clerk, VS. District
Court

Unless the court has expressly ordered otherwise, ifthis judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bsreau of Prisons’
Inmate Financial Responsibility Program, ore made to the clerk of the court,
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (Ircludins d^Jemlani number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

D Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
□ The defendant shall pay the cost ofprosecution.
□ The defendant shall pay tho following court eost(s):
□ The defendant shall forfeit the defendant's interest in the following property to foe United States:

Payments foal! be applied in foe following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) doe principal.
(3) line interest, (6) community restitution. (7) JVTA Assessment. (W penalties, and (9) costs, including cost of prosecution end court costs.

Cammon Appendix B7

1

r

4

i

$

I

!

;
i

i

1

.
!

i

i

i

i

;

:
;

i

!

APPENDIX C
USDC ORDER DENYING MOTION TO SUPPRESS
ENTERED 2-13-19

Case: l:18-cr-00058-DCN Doc #: 43 Filed: 02/19/19 1 of 85, PagelD #: 184

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

1
2
3

UNITED STATES OF AMERICA,
4

Case No. l:18-cr-53
Cleveland, Ohio

Plaintiff,
5
WEDNESDAY, FEBRUARY 13, 2019

VS.
6
TYRONE CAMMON «

7
Defendant,
8
9
10

TRANSCRIPT OF SUPPRESSION HEARING PROCEEDINGS
BEFORE THE HONORABLE DONALD C. NUGENT
UNITED STATES SENIOR DISTRICT JUDGE

11
12
13

APPEARANCES:

14

For the Government:

Kelly L. Galvin and
Scott C. Zarzycki,
Assistant United States Attorneys

15
16
For the Defendant:

James A. Jenkins, Esquire

Chief Court Reporter:

Sarah E. Nageotte, rdr, CRR,
United States District Court
801 West Superior Avenue
Court Reporters 7-189
Cleveland, Ohio 44113
(216) 357-7186

17
18
19
2Q
21
22
23

crc

24
25

Proceedings recorded by mechanical stenography, transcript
produced by computer-aided transcription.

Cammon Appendix C1

I

Case: l:18-cr*00058-DCN Doc#: 43 Filed: 02/19/19 81 of 85. PagelD#: 264
81

CantLin (Cross)

11:08:24

1

Q

No one heard the door slam when he went back in there?

2

A

put of the people I was there with?

3.

Q

Yeah.

4

A

No.

5

Q

What time parameter are we looking at between Nr.

€

Caramon's reentering the building and agents gaining access

1

to the apartment?

8

A

9

minutes.
MR. JENKINS:

li;C8;4J 10

11

In total, I would probably guess less than five

THE COURT:

13

MR, JENKINS:

Sure.
Thank you.

[Pause in Proceedings)

14

MR. JENKINS:

11:08:57 15

u

Thank you.

Nothing further, Judge.
THE COURT:

11

18

Thank you.

Anything further?
M$. GALVIN:

19

No,I Your Honor.

Thank you.

11 :C9:0fl 20

THE COURT:

21

Okay.

Thanks.

Anything further

then?

23

Thank you. Officer.

24

MS. GALVIN:

11:09:13 25

One second, Your

Honor?

12

22

All right.

You're excused..

Watch your step.

Would you like me to proceed on

the issue of argument first, Your Honor?

Cammon Appendix C2

>

Case: l:18-cr-00Q58-DCN Doc#: 43 Filed: 02/19/19 82of85. PagelD#:265
82
THE COURT:

1

11;GSj25

I’m not even sure you need to

2

argue on a case liking this, because Patton versus New Yock

3

says when you. have a valid warrant, you can go in and effect

4

an arrest.
They did have a valid warrant and they did effect an

5

6

arrest, and whether it was his place or it was somebody

7

else*s place, they can do that.
And then, I think the argument is on the protective

8
9
li:G9;37 10

sweep.

Now, this officer, I've heard a lot of testimony in

my career, I've heard him a couple times, but he seemed

11

pretty firm that on a bed, even though if the layman would

12

look at this bed and say nobody would hide in there, I mean.

13

that's probably what I would think, but thank goodness I'm

14

not a policeman going in and making arrests, because they

11;C9:S1 15

16
17
18
19
11:10;Q2 2Q

have experience, and he said he's seen it before.
And so, that was a protective sweep.

There's no

problem with that.
And the other firearm was found in plain view, so I
don't think there's any reason to suppress anything.
And there’s a final reason, too, because they got a

21

search warrant, and there would have been inevitable

22

discovery anyway because they secured the place.

23

So you didn’t think I knew that, did you?
MR, JENKINS:

24
liaouc 25

Judge, does that mean we're

overruled?

Cammon Appendix C3

I

Case: l:18-cr-00058-DCN Doc#: 43 Filed: 02/19/19 83 of85. PagelD#:266
83

11:10;2S

1

THE COURT:

2

MR. JENKINS:

3

THE COURT:

That means you're denied.
Denied.
Mr. Zarzycki was surprised that

4

the Judge knew about inevitable discovery.

5

MR. ZARZYCKI:

Actually, when he was talking

6

about it, that it would have been inevitably found during

7

the search warrant, that's when the issue just occurred to

8

me, and I didn't put it in my motion.
THE COURT:

9
11 ;30;40 10

Oh, then, it didn't occur to you

at first?

11

MR. ZARZYCKI:

12

MR. JENKINS:

13
14
11:10; 44 15

Right.
I'm glad he's not making the

ruling.
THE COURT:
MS. GALVIN:

Right.
Well, the search of the apartment

16

wasn't initially in his motion, so you couldn’t have

17

addressed inevitable discovery.

18

THE COURT:

19

do here then, Mr. Jenkins?

11 j!0;56 2Q

MR, JENKINS:

All right.

What are we going to

Your Honor, I believe we -- Ms.

21

Galvin and I at least, we didn't discuss it with Mr.

22

Zarzycki, the brains of the operation -- we were discussing

23

a potential trial date in April.

24
11;31 >02 25

THE COURT:
MR. JENKINS:

Okay.
And not to preclude any

Cammon Appendix C4

